<html>
<title> - H.R. 4968, TO PROVIDE FOR THE EXCHANGE OF CERTAIN LANDS IN UTAH</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
    H.R. 4968, TO PROVIDE FOR THE EXCHANGE OF CERTAIN LANDS IN UTAH
=======================================================================



                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 27, 2002

                               __________

                           Serial No. 107-133

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                  ________

                       U. S. GOVERNMENT PRINTING OFFICE
80-419                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 27, 2002....................................     1

Statement of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, Prepared statement of.......................     2
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah, Prepared statement of.......................     7
    Matheson, Hon. James, a Representative in Congress from the 
      State of Utah..............................................     8
        Prepared statement of....................................     9
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Boyden, Stephen G., Director, State of Utah, School and 
      Institutional Trust Lands Administration, Salt Lake City, 
      Utah.......................................................    10
        Prepared statement of....................................    12
    Fulton, Tom, Deputy Assistant Secretary, Land and Minerals 
      Management, U.S. Department of the Interior, Washington, 
      D.C........................................................     3
        Prepared statement of....................................     5
    Plant, Paula, School Trust Lands Specialist, Utah State 
      Office of Education, Salt Lake City, Utah..................    22
        Prepared statement of....................................    23
    Rupp, Karen, Trust Lands Specialist, Utah PTA, American Fork, 
      Utah.......................................................    15
        Prepared statement of....................................    16

Additional materials supplied:
    Young, Larry, Executive Director, The Southern Utah 
      Wilderness Alliance, and Pam Eaton, Four Corners Regional 
      Representative, The Wilderness Society, Statement submitted 
      for the record.............................................    33


















   LEGISLATIVE HEARING ON H.R. 4968, TO PROVIDE FOR THE EXCHANGE OF 
                         CERTAIN LANDS IN UTAH

                              ----------                              


                        Thursday, June 27, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:17 p.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. GEORGE P.. RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. Thank you for your 
patience. As I know we had votes on the floor, so this 
Committee is coming to order now, a little bit late. Today, the 
Subcommittee on National Parks, Recreation and Public Lands 
will hear testimony on one bill, H.R. 4968, the Federal Utah 
State Trust Lands Consolidation Act, introduced by my 
Subcommittee colleague, Congressman Chris Cannon from Utah.
    Mr. Radanovich. I would like to begin by welcoming the 
witnesses here today. I know many of them have traveled a long 
way to be able to testify on this legislation and that you have 
to catch planes. So, we are going to get going with this pretty 
quickly.
    H.R. 4968, which would ratify a land exchange agreement 
reached between the Department of Interior and Agriculture and 
the State of Utah would provide for the exchange of 243,000 
acres of State and Federal lands in Utah. The agreement would 
facilitate the Federal acquisition of State trust lands located 
within the scenic San Rafael Swell provided for completion for 
the remaining trust lands within the Red Cliffs Desert Reserve 
and eliminate State inholdings within the Manti-LaSal National 
Forest.
    Before turning the time over the Mrs. Christensen, who is 
not here, for the opening statement, I would like to ask 
unanimous consent that Mr. Matheson be permitted to sit on the 
dais following the remarks.
    Without objection, it is so ordered.
    I have been informed that the Ranking Member is not able to 
be here for this, and so I would turn my time and attention 
over to Mr. Cannon who has an opening statement.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
            on National Parks, Recreation, and Public Lands

    Good afternoon. The hearing will come to order.
    Today the Subcommittee on National Parks, Recreation, and Public 
Lands will hear testimony on one bill, H.R. 4968, the Federal-Utah 
State Trust Lands Consolidation Act, introduced by my Subcommittee 
colleague Congressman Cannon of Utah. I would like to begin by 
welcoming the witnesses here today. I know many of them have traveled a 
long way to be able to testify on this legislation.
    H.R. 4968, which would ratify a land exchange agreement reached 
between the Departments of Interior and Agriculture and the State of 
Utah, would provide for the exchange of 243,000 acres of state and 
Federal lands in Utah. The agreement would facilitate the Federal 
acquisition of state trust lands located within the scenic San Rafael 
(Ra-fell) Swell, provide for completion of the remaining trust lands 
within the Red Cliffs Desert Reserve, and eliminate state inholdings in 
the Manti-La Sal National Forest.
    Before turning the time over to Mrs. Christensen for her opening 
statement, I would ask unanimous consent that Mr. Matheson be permitted 
to sit on the dais following his remarks.
    I now turn to the Ranking Member, Mrs. Christensen, for any opening 
statement she may have.
                                 ______
                                 
    Mr. Cannon. Thank you, Mr. Chairman. In light of the fact 
that I think some of our witnesses have planes to catch and the 
lateness of the start here, if I could submit that statement 
for the record, I would appreciate that.
    Mr. Radanovich. That is not a problem.
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                         from the State of Utah

    Mr. Chairman, thank you for conducting this hearing on H.R. 4968, 
authored by myself and co-sponsored by Chairman Hansen and our 
colleague Congressman Matheson. Mr. Chairman, this land exchange 
represents the third major effort by the School and Institutional Trust 
Lands Administration, Governor Leavitt and the Department of Interior 
to block up the checkerboard ownership of these lands which are 
dedicated to the benefit of Utah's school children.
    H.R. 4968 will ratify an agreement signed by the Secretary of 
Interior, the Secretary of Agriculture and the Governor of Utah that 
agrees to exchange over 100,000 acres of land within Emery, Uintah, 
Utah, Washington and Sevier Counties. The Federal Government will gain 
ownership of spectacular lands located within the San Rafael Swell 
area, critical species habitat in the Red Cliffs Desert Reserve in 
Washington County and in holdings within the Manti- La Sal National 
Forest. In return, the school children of Utah will receive developable 
lands that may contain oil, gas, coal or other resources. This exchange 
has been certified by an outside, third party expert who has fully 
analyzed these lands and minerals and submitted a report stating that 
this is an equal-value exchange.
    Mr. Chairman, there has been much talk in my District about a 
proposed National Monument in the San Rafael area in Emery County, 
Utah. I have been opposed to use of the Antiquities Act to make this 
designation. However, this legislation does not prejudge that decision. 
The fact is that the San Rafael Swell is the subject of numerous 
wilderness proposals, a National Conservation Area proposal, a National 
Monument proposal and the list goes on. It is clear that this area will 
someday be protected in some fashion. It is the mandate of the Trust 
Lands Administration to generate income from their lands. The two are 
not compatible. Thus, this exchange will remove approximately 102,000 
acres of State lands from the San Rafael Swell which will enable this 
Congress or future Congresses to fully deal with how we protect this 
incredible area.
    The second major feature of this exchange will finally remove over 
2,400 acres of State lands out of the Red Cliffs Desert Reserve. 
Washington County, the State and private landowners agreed to this HCP 
several years ago to insure the protection of the desert tortoise and 
other species in this rapidly growing area. Although we have been 
successful in acquiring most other private lands, the State has been 
unable to trade out of the Reserve. Over time, the State will be 
compensated for these valuable lands through the sale of coal from the 
Walker Flat tract.
    Lastly, Mr. Chairman, this bill involves nearly 3,000 acres of 
lands that will be transferred to the Manti-La Sal National Forest. 
Near Moab, Utah the State currently owns tracts of land that are vital 
to the view shed of both the forest and BLM lands. The State has agreed 
to exchange these lands to protect these areas from future development.
    Mr. Chairman, this is a fair exchange that continues our efforts to 
protect those lands in Utah that should not be developed and allows the 
school children of Utah to fully appreciate the assets they own. We 
have wide spread support for this effort throughout the State, among 
the delegation, the Administration and the environmental community. I 
once again thank the Chairman and look forward to the testimony.
                                 ______
                                 
    Mr. Radanovich. With that, I notice that the Honorable 
James Matheson is not here. What I would like to do is to begin 
the hearing by calling up Mr. Tom Fulton, who is the Deputy 
Assistant Secretary of Land and Minerals of the Department here 
in Washington. Mr. Fulton, if you will begin your testimony, 
then we will allow Mr. Matheson to begin his as soon as he 
finishes voting and comes back here.
    So, welcome to the Subcommittee. I am going to hereby turn 
the gavel over to Mr. Cannon and he will be conducting the rest 
of the hearing.
    You have 5 minutes to give your testimony, Mr. Fulton. We 
hope you will be available for questions afterwards. Thank you 
very much. You may begin.

STATEMENT OF TOM FULTON, DEPUTY ASSISTANT SECRETARY OF LAND AND 
       MINERALS, DEPARTMENT OF INTERIOR, WASHINGTON, D.C.

    Mr. Fulton. Yes, Mr. Chairman, thank you. I will certainly 
interrupt my comments if Congressman Matheson arrives. Thank 
you very much for the opportunity to testify on behalf of the 
Departments of Interior and Agriculture in support of H.R. 
4968, the Federal-Utah State Trust Lands Consolidation Act.
    This legislation would ratify the agreement recently signed 
by the Department of Interior and the Department of Agriculture 
with Governor Leavitt of Utah. The agreement proposes to 
exchange approximately 108,000 acres of land currently 
administered by the Utah School and Institutional Trust Land 
Administration, known as SITLA for approximately 133,000 acres 
of Federal lands.
    In this agreement, deferred land purchases by the Federal 
Government of SITLA lands in Washington County will add 
additional protection over time for sensitive and threatened 
resources in the Red Cliffs Desert Reserve.
    The agreement, which we urge the Congress to ratify, serves 
important needs for both the Federal Government and its land 
managing capacity and those of SITLA. SITLA has management 
responsibility for 3.5 million acres within the State of Utah 
and it is mandated to manage those lands for the benefit of its 
trustees, primarily the school children of Utah.
    I know you will hear later from individuals who represent 
those.
    This legislation follows in the footsteps of the Utah 
Schools and Lands Exchange Act of 1998 and the Utah West Desert 
Land Exchange Act of 2000, which have benefited the Federal 
Government through the acquisition of environmental significant 
land and have benefited the people of Utah through long-term 
revenue potential.
    Earlier this month, on June 20th, the agreement was signed. 
Let me briefly describe the major components of that agreement. 
We do have a copy of that agreement. We could have it entered 
into the record, if it is so desired.
    Mr. Cannon. Please.
    Mr. Fulton. Thank you.
    [The agreement referred to follows:]

     ********** SUBCOMMITTEE INSERT **********

    Mr. Fulton. Under the agreement, the Federal Government 
would receive 108,000 acres of land from SITLA, the largest 
portion, approximately 102,870 acres in the San Rafael Swell of 
central Utah, would be administered by the Bureau of Land 
Management. The BLM currently manages the vast majority of this 
area, but like so many areas in Utah, it is interspersed with 
State trust lands.
    While the Utah Enabling Act of 1894 was well intentioned in 
designating four sections from each township to finance public 
education, within Utah the result is a complicated land 
management scheme.
    The San Rafael Swell is widely recognized and one worthy of 
special protection. This agreement places the overwhelming 
majority of those lands in Federal protection with some minor 
private inholdings remaining. All lands conveyed are subject to 
valid existing rights, including grazing and other permits.
    In addition the San Rafael acreage, other smaller transfers 
to the Federal Government management include 1700 acres within 
the Manti-LaSal National Forest, 1700 acres in Grand County and 
6,452 acres in Washington County.
    The SITLA lands within the national Forest allow for the 
consolidation of additional lands that are difficult for the 
State currently to manage, while providing alternatives for 
SITLA in other parts of Utah.
    Parcels conveyed in Washington County in the Red Cliffs 
Desert Reserve are important habitat areas for species such as 
threatened desert tortoise and will provide for further Federal 
protections of significant natural resources, while allowing 
State and private entities to develop lands elsewhere in 
Washington County.
    Another aspect of the agreement would be the transfer of 
133,000 acres of Federal lands to SITLA. These lands, primarily 
in Uintah County and Emery County, comprise lands with revenue-
generating potential for SITLA. The transfers to SITLA include 
both surface and mineral interests, with two notable 
exceptions.
    In the case of the UaUb Oil Shale Tract, the Federal 
Government will continue to receive a share of future oil shale 
revenues and in the case of the Walker Flat Coat Tract, the 
coal interest in those lands will revert to the Federal 
Government after approximately $46 million has been generated 
from coal production for SITLA. These provisions help ensure 
that the Federal interest is protected.
    This carefully crafted agreement provides a win-win for 
Federal agencies managing diverse lands in Utah, as well as the 
State of Utah and its schools and will generate much needed 
revenue while protecting sensitive resources.
    Legislation before this Committee represents an opportunity 
to place high resource value lands into public ownership and 
management while allowing the State of Utah to enhance the 
return to its schoolchildren. This agreement accomplishes this 
in a responsible way with long-term positive benefits for both.
    Thank you for the opportunity to testify. I would be glad 
to answer any questions the Committee might have.
    [The prepared statement of Mr. Fulton follows:]

Statement of Tom Fulton, Deputy Assistant Secretary, Land and Minerals 
              Management. U.S. Department of the Interior

    Thank you for the opportunity to testify on behalf of the 
Department of the Interior in strong support of H.R. 4968, the Federal-
Utah State Trust Lands Consolidation Act. This legislation would ratify 
the agreement recently signed by the Department of the Interior and 
Department of Agriculture with Governor Michael O. Leavitt of Utah. The 
agreement proposes to exchange approximately 108,284 acres of land 
currently administered by the Utah School and Institutional Trust Land 
Administration (SITLA) for approximately 133,283 acres of Federal 
lands. A set of the deferred land purchases by the Federal Government 
of SITLA lands in Washington County, Utah will add additional 
protection over time for sensitive and threatened resources in the Red 
Cliffs Desert Reserve.
    The agreement, which we urge the Congress to ratify swiftly, serves 
important needs of both the Federal Government in its land managing 
capacity, and of SITLA. SITLA has management responsibility for 3.5 
million acres within the State of Utah, and is mandated to manage those 
lands for the benefit of its trustees, primarily the schoolchildren of 
Utah. This legislation follows in the footsteps of the ``Utah Schools 
and Lands Exchange Act of 1998'' (P.L. 105-335) and the ``Utah West 
Desert Land Exchange Act of 2000'' (P.L. 106-301) which have benefitted 
the Federal Government through acquisition of environmentally 
significant lands and have benefitted the people of Utah through long-
term revenue potential.
The Agreement
    The Department signed the ``2002 Federal-Utah State Trust Lands 
Consolidation'' agreement on June 20, 2002. Let me briefly describe the 
major components of that agreement.
Lands to be Conveyed to the Federal Government
    Under the agreement, the Federal Government would receive 108,284 
acres of land from SITLA. The largest portion of these lands, 
approximately 102,871 acres in the San Rafael Swell area of central 
Utah, would be administered by the BLM. The San Rafael Swell area is an 
exquisite landscape of high mesas, deep canyons, spectacular arches and 
soaring spires. The terrain varies from sheer cliffs and dazzling 
canyons to more gently eroded badlands broken by shallow washes. The 
BLM currently manages the vast majority of this area, but like so many 
areas in Utah, it is dotted with state trust lands. While the Utah 
Enabling Act of 1894 was well intentioned in designating four sections 
from each township to finance public education within the new state of 
Utah, the proven result has been complicated land management.
    The San Rafael Swell region is widely recognized as one worthy of 
special protection. This agreement places the overwhelming majority of 
the lands in Federal protection with some minor private inholdings 
remaining. All lands conveyed are subject to valid existing rights 
including grazing leases or permits.
    In addition to the San Rafael acreage, other smaller transfers to 
Federal Government management include 1,773 acres within the Manti-
LaSal National Forest, 1,760 acres in Grand County and 6,452 acres in 
Washington County. The SITLA lands within the National Forest allow for 
the consolidation of additional lands that are difficult for the state 
to manage while providing productive alternatives for SITLA in other 
parts of Utah. Parcels conveyed in Washington County in the Red Cliffs 
Desert Reserve are important habitat areas for species such as the 
threatened desert tortoise and will provide for further Federal 
protection of significant natural resources and allow other state or 
privately owned lands elsewhere in Washington County to be developed.
Lands to be Conveyed to SITLA
    Another aspect of this agreement would transfer about 133,000 acres 
of Federal lands to SITLA. These lands, primarily in Uintah County and 
Emery County, with lesser acreage in Utah, Washington and Sevier 
counties, comprise lands with revenue generating potential for SITLA. 
The transfers to SITLA include both surface and mineral interests, with 
two notable exceptions. In the case of the ``UaUb Oil Shale Tract'', 
the Federal Government will receive a share of future oil shale 
revenues and in the case of ``Walker Flat Coal Tract'' the coal 
interest in those lands will revert to the Federal Government after 
approximately $46.5 million has been generated from coal production for 
SITLA's benefit. These provisions help to ensure that the Federal 
interest is protected.
    Protection of the Federal interest has been a top priority for both 
the Department of the Interior and the Department of Agriculture 
throughout negotiations over this exchange. This carefully crafted 
agreement provides a win for Federal agencies managing their diverse 
lands in Utah, as well as the State of Utah and its schools who will 
generate much needed revenue while protecting sensitive resources.
Conclusion
    The legislation before this Committee represents an opportunity to 
place high resource value lands into public ownership and management 
while allowing the State of Utah to enhance the return for its 
schoolchildren. This agreement accomplishes this in a responsible way 
with long term positive benefits for both the Federal Government and 
the people of Utah.
    Thank you for the opportunity to present the Department's views on 
H.R. 4968. I would be happy to answer any questions the Committee may 
have.
                                 ______
                                 
    Mr. Cannon. Thank you, Mr. Fulton.
    I would like to apologize to those of you who are here 
either to testify or as guests. We had a series of votes on the 
floor and so we started a little bit late.
    I would like to recognize the fact that the Chairman of the 
full Committee, Mr. Hansen, is here. Did you have an opening 
statement?
    Mr. Hansen. Thank you, Mr. Chairman. I don't have an 
opening statement. I am sure that everyone in this room knows 
an awful lot about this particular legislation. I thank you for 
introducing this bill.
    As many of you folks know, years ago we were always trying 
to get a little more financing out of the public lands of Utah. 
One of our past Governors, Governor Scott Matheson, introduced 
an idea called Project Bold. It really was a very bold idea, to 
block up all of the lands.
    I don't think people realize how the west is checker 
boarded. As you look around our western States, it just looks 
like a checkerboard. Who knows what? You almost have to have a 
surveyor with you wherever you go because you don't know what 
is private, what is State and what is Federal. It becomes very, 
very difficult.
    New Mexico was way ahead of the rest of us. They started 
blocking up years ago. Out of that the State of New Mexico 
realized a lot more for the school kids than others. We should 
have gone along with Governor Matheson, but it was like eating 
the whole elephant. It was just one big bite. I don't know if 
we could swallow it.
    What we are doing now is these small pieces like this one 
and those that we have done before. A lot of this inures to the 
benefit of our school children. It is a very smart way to do 
it. It is too bad, in a way, that we lost out on the Kaparwitz 
Plateau which has literally probably more clean coal than any 
other place that know of, maybe in the world, but at least in 
America.
    That, I understand, costs the school kids of America about 
$5 billion, but maybe some day we can resurrect that. I don't 
have too much argument with the Grand Staircase Escalante, only 
about 90 percent of it. The other 10 percent, I probably would 
agree with President Clinton that he maybe did a half vast, 
vast v-a-s-t, job on it, in case there is any question with the 
recorder.
    Any way we get down to it, I would hope the day would come 
that we could look into the Kaparwitz Plateau because there is 
a lot of energy there. As one of the conferees on the Energy 
Committee, I am fully aware of the importance that is going to 
be to us, terribly important. We are trying to do our very best 
to think of ways to pull this together.
    Mr. Cannon, I know that you feel very strongly about 
getting this bill through and you are ready to predicate your 
eternal life on this happening. If that is all true, we will 
move it in full Committee if you can get it through this 
Subcommittee.
    With that, I would like to submit my statement for the 
record and just forget what I said otherwise, all right?
    Mr. Cannon. With that context, I think we had better get 
this bill passed.
    [The prepared statement of Mr. Hansen follows:]

    Statement of The Honorable James V. Hansen, a Representative in 
                    Congress from the State of Utah

    I thank my friend Mr. Cannon for introduction of this bill. He has 
worked to bring this thing together, and I am sure that this 
legislation will result in a win-win situation for the State of Utah 
and the Federal Government.
    I would also like to thank all of the people that have been 
involved in this trade that will benefit all parties involved. I look 
forward to your testimony today.
    Mr. Cannon explained what this legislation does, and I am sure that 
Mr. Boyden will elaborate more on its specific points, so I won't go 
into that. But I would like to comment on a few important things that I 
believe this legislation will accomplish by ratifying the agreement 
reached by the State of Utah and the Departments of the Interior and 
Agriculture.
    When you look at a map of Utah, you see that a large portion of the 
state looks like a checkerboard. These are the school trust lands that 
we are talking about today. They were created by the Utah Enabling Act 
to provide revenue to the State School Fund. But people that are in 
charge of producing revenue from these lands, like Mr. Boyden, have the 
problem that in most parts of the state, the trust lands are scattered 
out all across the map.
    Sometimes they get stuck in Federal designations or withdrawals, 
such as the Grand Staircase-Escalante National Monument, where there 
were more than 175,000 acres of school trust lands. We did a land 
exchange in the 105th Congress that swapped those lands that were 
locked up inside the monument with lands that would be of more 
potential benefit to Utah's school children. This got rid of the state 
inholdings within the monument and blocked some of these trust lands up 
together so the state could make some progress with their revenue. It 
was a win-win situation from everyone's standpoint. We did the same 
thing in the 106th Congress with over 100,000 acres in Utah's West 
Desert.
    This legislation accomplishes much of what that legislation did, 
along with a few more things. The land exchange in the San Rafael Swell 
area eliminates many problems that were similar in the Grand Staircase-
Escalante National Monument before the exchange. This is sorely needed, 
especially since some of these trust lands lie within designated 
Wilderness Study Areas. This legislation eliminates all inholdings in 
the Manti-La Sal National Forest. It also requires the Bureau of Land 
Management to acquire most of the remaining trust lands within the Red 
Cliffs Desert Reserve in Washington County, Utah. Of course, the lands 
exchanged will all be of approximately equal value.
    I thank my colleagues for this opportunity to resolve some of the 
resource conflicts in Utah with this common-sense legislation. I look 
forward to working on this in the future, and urge all of my colleagues 
to support H.R. 4968.
                                 ______
                                 
    Mr. Cannon. We would like to recognize the presence of the 
gentleman from Idaho, Mr. Simpson, who I will recognize in just 
a moment.
    Let me also point out that Congressman Matheson, my 
colleague and friend, is here with us. We have gone ahead 
because we have some flights to make. But Mr. Matheson will 
speak to us next.
    With that, the gentleman is recognized for 5 minutes.

    STATEMENT OF THE HON. JIM MATHESON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Matheson. Well, Mr. Chairman, I don't have an opening 
statement. I just want you to know that any time I see on the 
schedule something to exchange certain lands in Utah, we in 
Idaho get very nervous, so I wanted to be here to make sure 
that part of it didn't include Idaho.
    We are actually doing our best to give Utah land away to 
Nevada and otherwise. You shouldn't worry so much.
    Mr. Cannon. I had a couple of questions, Mr. Fulton. First 
of all, once again for the record, does the Administration 
consider this to be a fair and equal trade?
    Mr. Fulton. Yes, Mr. Chairman, it does. In fact, both the 
Bureau of Land Management which represented the Administration 
in the negotiations and the State have an arms' length white 
paper independently verifying the equity of this exchange.
    Mr. Cannon. Thanks. In what ways would the Federal 
Government benefit from the exchange?
    Mr. Fulton. Well, it is able to better manage the public 
lands it will have. It gained significant environmental 
resources that it can apply some management practices to. It 
has a strong desire to work with State and local governments. 
So, something that benefits the Utah school children is 
important to the Administration.
    Mr. Cannon. Could you just follow up a little bit on the 
environment? Will this benefit the environment?
    Mr. Fulton. Yes, significantly. In particular, the Desert 
Tortoise in the south, north of St. George is southwestern 
Utah, that is a land acquisition component of this agreement 
that will result in an enhanced protection value for that 
threatened species.
    Mr. Cannon. Thank you. That is all I had by the way of 
questions. Thank you, Mr. Fulton. We appreciate that clear and 
direct testimony and appreciate your service to the Committee.
    Mr. Fulton. Thank you very much.
    Mr. Cannon. Now, Mr. Matheson, if you would join us. 
Without objection, we would like to invite Mr. Matheson to join 
us on the dais if he is interested in doing that after his 
testimony.
    Mr. Matheson. I appreciate that.
    Mr. Cannon. You are recognized for 5 minutes.
    Mr. Matheson. I have a written statement. I am going to be 
brief because I know there are folks who are trying to catch a 
plane and I know we got a little late start. So, I will submit 
my written statement.
    I just want to assistant myself with just about everything 
Mr. Hansen said. I am not sure about the ``half past'' stuff. 
But most of what he said I think I am in agreement with.
    I think this is a great day because public lands 
discussions in Utah are so often characterized by people just 
sort of throwing grenades at each other. Today we have an 
example where the State School Trust Land Administration did it 
the right way. They reached out. They talked with all the 
relevant parties. They had a collaborative process. It just 
goes to show that when we work together we can actually come up 
with a common sense solution. I really applaud them on that 
effort to work in a collaborative way.
    I hope that this is a signal of things to come in terms of 
how we address a lot of public lands issues in Utah. I hope the 
State School Trust Land Administration continues to move 
forward in trying to consolidate this checkerboard pattern that 
we all know makes no sense. For the sake of the school kids and 
for the sake of better land management, we ought to move 
forward on this consolidation throughout our State.
    So, I commend them. I think that is really the biggest 
story out of this legislation, their good work.
    I commend the Chairman for introducing this bill and I 
wholeheartedly support his in his efforts.
    I yield back the balance of my time.
    [The prepared statement of Mr. Matheson follows:]

 Statement of The Honorable Jim Matheson, a Representative in Congress 
                         from the State of Utah

    Mr. Chairman, Ranking Member Christiansen, I want to thank you for 
providing me with the opportunity to testify on this important piece of 
legislation.
    This legislation seeks to remedy, through a common sense, 
collaborative approach, a very difficult challenge that we have in 
Utah.
    For generations, the map of Utah has been divided and sub-divided 
then sub-divided again into a checkerboard pattern of ownership upon 
which all land use decisions have been made. Within this checkerboard 
are scattered 3.5 million acres of Utah's school trust lands.
    The checkerboard separates different parcels of trust land, and 
while these lands provide Utah schools with valuable royalties, they 
also limit development and planning for Utah lands and the surrounding 
communities.
    Twenty years ago, Governor Scott Matheson, my father, proposed a 
new way to manage these lands. Project Bold, as he termed it, would 
consolidate many of the lands. It would partner the state, local 
communities, and the Federal Government in a collaborative effort to 
better manage Utah resources.
    Project Bold was successful in many areas. It helped create more 
manageable lands while giving the state a better way to harness the 
wealth of its resources.
    This legislation proposes to exchange approximately 108,000 acres 
of land currently administered by the Utah School and Institutional 
Land Administration for approximately 133,000 acres of Federal land.
    Mr. Chairman, the importance of this agreement for the people of 
Utah cannot be understated. I believe that when considering its value 
we need to keep in mind three points.
    First, this agreement is an exchange of equal value. Often times 
when we are charged with legislating land exchanges, we find it 
challenging to take care of affected parties while keeping our trust 
with the American taxpayer.
    This is one instance where we do not face that problem. The vast 
majority of the land in this exchange is from the San Rafeal Swell area 
of central Utah. For those of you who have not been there, the Swell is 
a geological, botanical, and biological wonder that is a national 
treasure. Its an area about the size of Delaware made up of high mesas, 
deep slot canyons, untouched forests, pure rivers, and endangered 
animals.
    Conveying the SITLA lands within the Swell to the Federal 
Government is one of the first steps we must take in preserving this 
treasure for future generations of Americans. SITLA will also be 
transferring lands to protect the endangered desert tortoise as well as 
the Manti-Lasal National Forest. Protecting these resources is one of 
the basic tasks of our Federal lands policies.
    Secondly, I hope this Committee keeps in mind the cooperation that 
gave way to this legislation. Too often in Utah, the debate about how 
we manage our public lands comes down to butting heads rather cool-
headed dialogue.
    That was not the case for this agreement. SITLA sat down and talked 
through this deal with the Utah environmental community. Objections 
were raised and worked through. Agreements were found, and the values 
of all parties were respected. It is my hope that the existing concerns 
can be eased through continued communication.
    I believe that this collaborative process signals a possible new 
era in the debate on our public lands. I hope that the lesson learned 
from this process is that all Utahns value and treasure our lands, and 
maybe we can begin to deal with the issues that have kept us apart for 
too long.
    Finally, we should keep in mind why the School Trust Land program 
was created in the first place, and that is for the benefit and welfare 
of the children of Utah.
    Utah has the fastest growing population in the country. We have the 
highest student to teacher ratio in the nation, and like many other 
states across this nation we are increasingly challenged to find 
resources for our growing school population.
    This legislation provides us with some of the resources that Utah 
schools will need to successfully educate our children. The interest 
provided to the fund is what helps to supplement school budgets, the 
more royalties there are the more resources we can provide our 
children.
    I want to thank the Committee for inviting me here. I look forward 
to the swift passage of H.R. 4968.
                                 ______
                                 
    Mr. Cannon. Thank you. You are welcome to come up on the 
dais. I just want to make a couple of points. First of all, 
welcome to the debate on this issue. In the new districting 
plan, this will probably be in Congressman Matheson's district.
    Second, having had a lot of experience in the public lands 
of Utah, Mr. Matheson is going to add greatly to this debate. 
We appreciate you joining the debate. I will point out that as 
a young man this was his father's project. So, this, I suspect 
is sort of seeing some good things come out of what has been a 
good idea on a bipartisan basis for a very long time.
    If you would like to join us, you are welcome to.
    I guess we are now dealing with the third panel of 
witnesses, if you would come up, please. We have Mr. Stephen 
Boyden, Director, State of Utah, School and Institutional Trust 
Lands Administration, Salt Lake City, Utah. Welcome, Mr. 
Boyden.
    We have Ms. Karen Rupp, Trust Lands Specialist, Utah PTA, 
from American Fork, Utah. Thanks for being with us today.
    Also, Ms. Paula Plant, School Trust Lands Specialist, Utah 
State Office of Education, Salt Lake City, Utah. I personally 
appreciate all the time that you individually have spent on 
this issue and for the leadership you have given not only in 
Utah, but to the western States on the issue.
    With that, Mr. Boyden, you are recognized for 5 minutes.

STATEMENT OF STEPHEN G. BOYDEN, DIRECTOR, STATE OF UTAH, SCHOOL 
 AND INSTITUTIONAL TRUST LANDS ADMINISTRATION, SALT LAKE CITY, 
                              UTAH

    Mr. Boyden. Thank you, Mr. Chairman. It is an honor for us 
to be here and have an opportunity to address ourselves to H.R. 
4968. We are here to urge support for and swift passage of that 
bill.
    I would like to give special thanks to some people who have 
been deeply involved in this: Steve Griles, the Deputy 
Secretary of Interior; Tom Fulton, who has just testified; to 
Terry Catlin and to Sally Wiseley, the State Director of the 
State of Utah who have been involved on the Federal side. Then 
to John Harja who has been representing this State in the 
negotiations along with the staff of the State School 
Institutional and Trust Lands Administration.
    All the effort culminated in the agreement signed June 
18th. That agreement is in the record at this time. I would 
like to point out that the agreement covers three things. The 
first is a land exchange of equal values. Those values are set 
out in a report that was prepared by those negotiators. I would 
ask that this report, called ``A White Paper in Support of the 
2002 Federal-Utah State Trust Lands Consolidation Agreement,'' 
prepared by John Harja and Terry Catlin, be submitted to the 
record at this time.
    Mr. Cannon. Without objection.
    Mr. Boyden. That was the first part of the agreement. The 
second part deals with the deferred purchase of the Desert 
Tortoise habitat that was referred to earlier. There are some 
lands located near St. George, Utah, in Washington County that 
have an appraised value of approximately $32 million. These 
lands will be purchased from revenues from a coal field known 
as Walker Flat as part of the agreement.
    Much of the agreement deals with how this money will be 
dispersed. It will pay for the Desert Tortoise habitat parcel 
by parcel. Those will be released to the Federal Government as 
the money is obtained.
    The third item in the agreement deals with the 
restructuring of a debt that is owed to the State of Utah by 
the Federal Government in the last exchange. It is worth about 
$15.5 million now, which includes principal and interest. 
Again, the Walker Flat Coal tract will provide the cash to pay 
off that debt. The white paper that I referred to just a moment 
ago is very helpful in understanding how the equal value was 
arrived.
    I would like to address myself very quickly to two issues. 
One is the equal value question and the second one is the 
environmental consequences of this agreement. The paper on Page 
22 says, ``The aggregate total values summarized in the table 
below amount to rounded totals of $35,500,000 for the State 
lands and $35,700,000 for the BLM and Forest Service lands.''
    So, that is about as close as you can get when you are 
talking about equal value. It is less than one-half of 1 
percent. So, I would like to commend those people who worked on 
it to come up with the values.
    I would also refer you to Page 5 of the report, the first 
paragraph at the very top. It says, ``The final report of the 
independent qualified appraisers,'' and these were hired 
jointly by the State and the Federal Government, ``did find 
that the exchange was approximately equal in value and that the 
value determined was a reasonable facsimile of probably market 
value.'' I think that's critical.
    Then I would refer you to a paper that comes from 
Hendricks, Vella, Weber and Williams. These were the real 
estate consultants hired by both of us. Their conclusion reads 
this way after reviewing how the exchange was taking place and 
the process that was used in making the valuation, they 
conclude as follows:
    ``Based on the foregoing, we therefore find that the 
exchange referred to as the Federal-Utah State Trust Lands 
Consolidation Exchange is an exchange of properties 
approximately equal in value.''
    So, I think that really addresses that question. We are 
happy at this point to say that the teams have worked that out 
and then that has been reviewed by independent real estate 
people, one of whom is an MAI appraiser, and they have 
concluded as I have just read.
    The next item that I would like to address is the 
environmental impact of this exchange. We tried early on to 
avoid any kind of conflict that may compromise the environment. 
So, we scrupulously avoided all WSA's, all Section 202 lands, 
which had been inventoried in the State. Also, we avoided the 
existing citizens' proposals that were proposed for wilderness.
    In so doing, we have reduced much of the conflict which 
might otherwise exist.
    There are several features which are important in our 
agreement. There will be continued consultation and protection 
under the Endangered Species Act. Cultural resources are 
protected under the State laws, which are equivalent to Federal 
law. We are going to work internally with Utah's Division of 
Wildlife Resources for protection of the habitat for all 
animals that would not necessarily be on the Endangered Species 
List.
    It is also important to understand that the Clean Air and 
Clean Water Acts apply to the land acquired by the State under 
this exchange. The purpose has been, I think, very well met. We 
have tried from the very beginning to make Federal management 
over very sensitive areas available in the San Rafael Swell 
area.
    In return, the State has acquired lands which it can manage 
for potential development. In all, it has been an exchange 
which has been beneficial both to the United States and to the 
State of Utah.
    Thank you very much.
    [The prepared statement of Mr. Boyden follows:]

Statement of Stephen G. Boyden, Director. Utah School and Institutional 
                       Trust Lands Administration

    Mr. Chairman, and members of the Subcommittee, thank you for the 
opportunity to testify today. My name is Stephen G. Boyden, and I am 
the Director of the Utah School and Institutional Trust Lands 
Administration, an independent state agency that manages more than 3.5 
million acres of state school trust lands within Utah that are 
dedicated to the financial support of public education.
    I encourage the Subcommittee, and Congress, to act favorably on 
H.R. 4968, the Federal - Utah State Trust Lands Consolidation Act of 
2002. This legislation ratifies the recent agreement between the State 
of Utah and the Departments of the Interior and Agriculture for the 
exchange of approximately 243,000 acres of state and Federal lands in 
Utah. The Agreement, when ratified, will place over 102,000 acres of 
state trust lands located within Utah's remarkably scenic San Rafael 
Swell region into Federal ownership, will permit completion of Federal 
acquisition of state trust lands within the Red Cliffs Desert Reserve 
in Washington County, Utah, and will eliminate state inholdings in the 
Manti - La Sal National Forest. In return, the State of Utah will 
receive Federal lands with lesser environmental sensitivity but greater 
potential for generating revenue for Utah's public education system--
the purpose for which Congress originally granted trust lands to Utah 
and the other western states.
    Revenue from Utah school trust lands--whether from grazing, 
forestry, surface leasing or mineral development--is placed in the 
State School Fund, a permanent income-producing endowment created by 
Congress in the Utah Enabling Act for the support of the state's public 
education system. Historically, revenue from these lands has been 
limited, in large part because the school trust lands are largely 
scattered in checkerboard pattern throughout surrounding Federal lands. 
When the United States withdraws the surrounding Federal lands from 
multiple use status, for national parks, monuments, or wilderness study 
areas, the usefulness of the inheld state trust lands for economic uses 
such as mineral development is effectively destroyed. Likewise, state 
efforts to generate revenues from its lands through sale of the lands 
for recreational development and homesites have been viewed by Federal 
land managers as conflicting with conservation-oriented management of 
the surrounding Federal lands. Over the years, disputes over state 
school trust lands within Federal conservation areas have generated 
significant public controversy, and often led to expensive and time-
consuming litigation between the State of Utah and the United States.
    In the last several years, the State of Utah and the United States 
have made great strides in resolving this problem through a series of 
legislated land exchanges. In 1998, Congress passed the Utah Schools 
and Land Exchange Act, Public Law 105-335. This legislation ratified a 
state-federal agreement that provided an exchange of hundreds of 
thousands of acres of school trust lands out of various national parks, 
monuments, forests and Indian reservations into areas that could 
produce revenue for Utah's schools. Then, in 2000, Congress enacted the 
Utah West Desert Land Exchange Act, Public Law 106-301, which exchanged 
over 100,000 acres of state trust land out of proposed Federal 
wilderness in Utah's scenic West Desert for Federal lands elsewhere in 
the region.
    The hallmark of each of these exchanges was their ``win-win'' 
nature: school trust lands with significant environmental values were 
placed into Federal ownership, while Federal lands with lesser 
environmental values but greater potential for revenue generation were 
exchanged to the State, thus fulfilling the purpose of the school land 
grants--providing financial support for public education. Members of 
this Subcommittee and your staff provided great support for these 
exchanges, and we thank you again for all your efforts.
    H.R. 4968 is the next step in this process of redrawing the land 
ownership map in Utah to eliminate conflicts between state and Federal 
land management. The legislation before you would ratify the June 18, 
2002 Agreement between the State of Utah and the Departments of the 
Interior and Agriculture. Enactment of H.R. 4968 will:
1. Eliminate State Inholdings Within BLM Lands in the San Rafael Swell 
        Region.
    The San Rafael Swell is one of Utah's scenic wonders. A 900 square 
mile area of uplifted cliffs and deep canyons, it provides spectacular 
recreational opportunities for the public, contains significant 
cultural, historic and paleontological resources, and includes valuable 
wildlife habitat. Local government and conservation groups have 
variously proposed the San Rafael Swell for national monument status, a 
national conservation area, a heritage area, and Federal wilderness. 
All agree that it is a spectacular natural resource that merits special 
status.
    Under the Agreement, the Utah School and Institutional Trust Lands 
Administration (the ``Trust Lands Administration'') would convey 
approximately 102,871 acres of school trust lands within the San Rafael 
Swell to the Bureau of Land Management. Many of these lands are within 
BLM wilderness study areas (WSAs), and other lands are within areas 
proposed by the environmental community for wilderness designation. 
Conveyance of these trust lands to the United States would eliminate 
state-federal land management conflicts in the area, and remove the 
possibility that sale or development of state lands in the area could 
conflict with protection of the Swell's significant scenic resources.
2. Provide for Federal Acquisition of Remaining State Trust Lands in 
        the Red Cliffs Desert Reserve.
    The Red Cliffs Desert Reserve in Washington County, Utah, was 
established in 1995 to implement a multiple-species habitat 
conservation plan approved by the Fish and Wildlife Service under 
Section 10(a) of the Endangered Species Act. The Reserve contains the 
highest density of critical habitat for the Mojave desert tortoise, a 
threatened species, in the United States, as well as providing a 
valuable recreational resource in what is one of the nation's fastest 
growing counties. Approximately 11,000 acres of Utah school trust lands 
were originally included within the Reserve. Prior to creation of the 
Reserve, most state school trust lands in the Reserve were planned for 
commercial and residential development to accommodate rapid urban 
growth occurring in the area. In the 1995 intergovernmental agreement 
creating the Reserve, the Department of the Interior agreed to acquire 
the Utah school trust lands in the Reserve by purchase or by 
administrative land exchanges conducted pursuant to Section 206 of the 
Federal Lands Policy & Management Act of 1976. Since 1995, however, BLM 
has acquired only 939 acres of school trust lands in the Reserve by 
administrative land exchange under FLPMA. BLM's delay in acquiring 
school trust lands in the Reserve has caused significant financial loss 
to Utah's public schools, which are entitled by law to the proceeds 
from the lands.
    The Agreement provides for the conveyance of over 6,000 acres of 
trust lands within the Reserve to the BLM. Certain of these lands will 
be conveyed to the BLM immediately, while others will be conveyed as 
the State receives revenues from coal lands that it is receiving in the 
exchange. By fixing a mechanism for the conveyance of the lands, the 
Agreement will eliminate the significant expenditures of staff and 
resources that BLM and the Trust Lands Administration are currently 
incurring in an effort to complete administrative land exchanges of 
state lands out of the Reserve. More importantly, Federal acquisition 
of the state trust lands in the Reserve will fulfill the United States' 
1995 commitment to compensate Utah's school trust for lands effectively 
taken by the Federal designation of critical habitat for the desert 
tortoise.
3. Eliminate State Inholdings in the Manti - La Sal National Forest.
    The Trust Lands Administration will also convey approximately 
2892.56 acres of trust lands located within or adjacent to the Manti - 
La Sal National Forest to the Department of Agriculture for inclusion 
in the National Forest System. Certain of these lands are located in 
the Wasatch Plateau area of the forest, and contain wildlife habitat, 
timber resources, and roadless areas. Other state lands being conveyed 
to USDA are located above the scenic Castle Valley area in Grand 
County, Utah, and were identified by local conservation groups for 
Federal acquisition to protect forest resources and scenic vistas from 
the possibility of commercial development.
4. Provide For An Equal Value Exchange And Protect the Public Interest.
    In negotiating the Agreement, the State and the United States 
expended substantial effort to ensure that the lands being conveyed by 
the State to the United States and the Federal lands being conveyed to 
the State were of approximately equal value. This process included 
careful analysis of sales of land comparable to those being conveyed, 
and, in the case of state lands within the Red Cliffs Desert Reserve, 
use of full narrative appraisals by a licensed Utah appraiser approved 
by the Bureau of Land Management.
    Recognizing that valuation of lands associated with Federal land 
exchanges has been of concern to members of the Subcommittee and the 
public, the parties also engaged a nationally-recognized independent 
real estate consultant to evaluate the methodologies used by the 
parties in valuing the lands and minerals involved in the exchange and 
the parties' conclusion that the lands on both sides of the exchange 
are of approximately equal value. The independent consultants concluded 
that the parties' process for determining value and their conclusion 
that the exchange was on an equal value basis was reasonable and 
supportable.
    The Subcommittee should also note that the Agreement contains 
various provisions protecting the interests of parties that may be 
affected by the exchange. Valid existing rights, including the rights 
of existing grazing permittees, mineral lessees, and other land users 
will be honored by the parties to the exchange. In negotiating the 
exchange, the State of Utah also took care to avoid selecting Federal 
lands containing significant environmental values that might be 
impacted by state acquisition, such as wilderness study area or 
proposed wilderness status, although some minor overlaps do exist. The 
Agreement also contains specific provisions for the protection of any 
candidate, threatened or endangered plant or animal species that may be 
found on lands being acquired by the State, and contemplates the 
execution of a detailed Memorandum of Understanding between the Trust 
Lands Administration and the U.S. Fish and Wildlife Service, with 
consultation under Section 7 of the Endangered Species Act at that 
time.
5. Benefit School Revenues and Local Economies.
    The Federal lands being acquired by Utah's school trust have been 
carefully chosen for their potential to permit economic development at 
the local level, as well as providing revenue to the permanent State 
School Fund. As these lands are developed, they have the potential to 
create new jobs and property tax revenue, which will also benefit 
schools both locally and statewide
    In conclusion, H.R. 4968 represents another great step toward 
simplifying land ownership in Utah, protecting Utah's natural heritage, 
and adequately funding public education. I respectfully urge the 
Subcommittee to approve it expeditiously and without amendment.
    Thank you for the opportunity to testify today.
    NOTE: ``A White Paper in Support of the 2002 Federal-Utah State 
Trust Lands Consolidation Agreement'' submitted for the record by Mr. 
Boyden has been retained in the Committee's official files.
                                 ______
                                 
    Mr. Cannon. Thank you very much for your testimony. You 
will note that there are lights on the panel. Green means you 
can talk. Yellow means sum up. Red means if you care about your 
airplane you might want to shorten.
    I didn't cut you off, by the way, Mr. Boyden. That was very 
helpful testimony. We appreciate that. Certainly we are not 
going to cut people off, but if you are just aware of that 
timing light, we would appreciate it.
    Ms. Rupp, if you would like to take 5 minutes.

  STATEMENT OF KAREN RUPP, TRUST LANDS SPECIALIST, UTAH PTA, 
                      AMERICAN FORK, UTAH

    Ms. Rupp. Mr. Chairman and members of the Subcommittee, my 
name is Karen Rupp. I am here today representing the Utah 
Congress of Parents and Teachers or the Utah PTA.
    Susan Dayton has submitted a letter--she is the President 
of the Utah PTA--showing great support for this is exchange 
that is about to take place.
    We urge Congress to enact this legislation promptly and 
especially without amendment. Education is really important to 
Utahans. We tax ourselves as one of the highest States and yet 
we have the lowest per-student expenditure of all 51 States.
    So, the school trust lands are extremely important to us in 
being able to fund education and enhance it.
    In the 1980's Utah PTA found and was exposed to what school 
trust lands are. A resolution was passed with Utah PTA working 
with the other education communities to explain what trust 
lands could possibly do in the funding, because we honestly 
were very ignorant of what these lands were granted for at the 
beginning of Statehood.
    We found in the western United States the other education 
communities are in practically the same boat. So, we have found 
that that has been very beneficial for us to do it. Currently, 
every year we have about 2500 parents watching a video that was 
produced by SITLA and the State office of Education, explaining 
what trust lands are and how they can benefit Utah schools.
    So, if you were to ask currently today about school trust 
lands, you would be surprised how many recognize what they are 
and what the intended use was for them as opposed to back in 
the 1980's where no one knew what they were.
    One of the programs that has come out from this is the way 
we had wanted to do it so that people could recognize what 
school trust lands are. We have taken a program called the 
School LAND Trust Program and this is money that is spent from 
the dividends and interest off the permanent account. It goes 
directly to the schools and they make plans with parents, 
teachers and administrators sitting on the committees. They 
will make plans of how to spend this money that will best 
improve and enhance education on the local level. It is totally 
site-based decisionmaking from the schools and it is approved 
by local school boards.
    Just to give you two examples of what is happening in Utah, 
I would like to tell you about two of the schools. One of them 
is Whitehorse High School, which is on the Navajo tribal lands. 
It is 99 percent Navajo. They are really concerned as parents 
and the administrators that the students don't lose their 
cultural identify, but at the same time, they are really 
concerned about their future.
    So, what they decided to do is to take their trust lands 
money and use it to help a heritage cultural program. They have 
been able to purchase textbooks and supplies and things to be 
able to enhance their learning of their proficiency in English. 
They do a summer program that will be able to do their reading 
and writing and mathematics and social studies, the areas that 
they are weakest in.
    Parents are involved in this. They sit down and they will 
go over the data with the parents to find out where they are 
really failing and what they can do to help them. It is equally 
important that they do, along with this, their native culture 
with their Navajo arts and crafts. This program is ongoing and 
it is all being funded through the trust lands. It is really 
exciting to parents.
    The second I would like to tell you about is Bacchus 
Elementary, which is in Kearns, Utah. This is a school that has 
15 different primary languages going on. If you can imagine a 
teacher in elementary school trying to help the children learn 
to read and write and do mathematics all at the same time that 
they truly do not understand the English language.
    What they have done is they have taken their money and 
helped to fund an aide to work with the children who are 
struggling so much in the proficiency of English and enable the 
teacher to be able to continue teaching the other children in 
the classrooms, keeping in mind that our classroom rates have 
been very, very high.
    This has been significant as they have gone through and 
done their testing, to be able to know that they have been able 
to help these children and especially that they have been able 
to keep the other children on track.
    Just finally, we would like to thank you as Utah PTA and 
the education community on the exchanges that have taken place 
prior to this time and look forward to the ones that are going 
to happen this time. So, we want you to know that when we say 
that this money directly affects the children, we really have a 
program in place to be able to do that.
    Thank you for allowing me to be here.
    [The prepared statement of Ms. Rupp follows:]

   Statement of Karen A. Rupp, Utah Congress of Parents and Teachers

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today. My name is Karen Rupp. I am here today 
representing the Utah Congress of Parents and Teachers--the Utah PTA.
    Attached you will find a letter of support for the 2002 Federal--
Utah State Trust Lands Consolidation from Susan Dayton, President of 
Utah PTA. Utah PTA strongly supports the Federal - Utah State Trust 
Lands Consolidation Act of 2002 H.R. 4968. We urge Congress to enact 
this legislation promptly and without amendment.
    Education is important to Utahns. Taxpayers in Utah spend more of 
their tax dollar on education than any other state. Two-thirds of Utah 
is Federal land, which pays no taxes. Utah has a young population with 
the highest number of school students per taxpayer. The untaxed Federal 
land combined with the high student-taxpayer ratio results in the state 
with the highest tax commitment to education providing the lowest per 
pupil funding of all fifty-one states. Consequently, school trust lands 
are significant because the endowment fund created by these lands 
generates an increasing revenue stream of interest and dividends to 
each Utah school.
    Congress granted school trust lands to Utah at statehood for the 
express purpose of providing funding for Utah's public schools. Utah 
has not always been exemplary in managing the lands and revenues as a 
trust. It was the PTA in the late 1980's that recognized how school 
trust lands could become an important revenue source for education in 
Utah, if they were managed as a trust as was intended at statehood. 
Utah PTA passed a resolution, you will find attached with the written 
testimony that began the movement to reform the way school lands in 
Utah were managed. At that time there was just $34 million in the 
permanent State School Fund where revenues from the land are deposited. 
Utah PTA, with the other education groups in the state, became unified 
in their resolve to ensure that school trust lands be managed for 
schools. After significant study, the legislature created the School 
and Institutional Trust Lands Administration, an independent state 
agency, to manage the school trust lands in 1994. Now just eight years 
later, the fund has grown to $351 million.
    Legislation such as H.R. 4968 will have a direct impact on Utah 
students. In 1999, the legislature established the School LAND Trust 
Program that distributes the annual interest and dividends from the 
permanent State School Fund directly to each public school on a per 
pupil basis. Committees consisting of the principal, teachers and 
parents determine the school's greatest academic need. They prepare a 
plan to address the identified need with their portion of the annual 
trust land dividend. Local school boards approve the plans and exercise 
oversight of plan implementation and spending. It is a model program 
for local control and site-based decision making that works. As a 
result, this exchange will make a difference for every child in Utah.
    Schools implement plans that are unique to the needs of students at 
each school. The following are examples of how two different schools 
used their trust land funds to make a difference:
    Whitehorse High School is located on the Navajo Tribal Lands and is 
99 percent Navajo. Parents, students, and faculty determined that the 
Heritage Language Program is a pivotal component of the Whitehorse High 
School curriculum; therefore, they developed a Cultural Center on site 
at Whitehorse High School. The purpose of the Cultural Center is to 
provide resources to teach about the Navajo culture and traditions. It 
provides informational resources such as books, tapes, and educational 
curricula. The center utilizes real life cultural experiences. Hands-on 
authentic instruction, integrated into the mainstream curriculum, 
provides students with meaningful relevant content. The center tests 
for English proficiency, enabling the school to determine if 
instruction is having a positive impact on learning. Parents are 
notified of the test's results. Parents who serve on the School 
Improvement Team actively analyze the data with teachers, and 
administrators. In addition, a summer school to remediate weak academic 
areas is provided for a month. The teachers integrate writing, math, 
science, social studies, reading and traditional Navajo arts and 
crafts. This plan will be ongoing to provide educational opportunities 
for the students at Whitehorse High School.
    The second school is Bacchus Elementary located in Kearns, Utah. 
This school has 15 different primary languages spoken as well as a 
mobility rate of 39.5 percent, which has increased 4 percent over the 
last few years. The committee used the school's dividends to hire an 
aide to help students with limited English proficiency and reading 
difficulty. Their testing showed improvement in scores, especially 
among those who are considered English Language Learners (ELL).
    As parents, teachers, principals, and school boards become involved 
in deciding how to make the greatest difference for their students with 
the school trust land dividends, they also become aware how important 
it is that trust lands be managed to produce revenue. School children 
should not go without basic education needs such as textbooks, 
technology and professional development while the public enjoys scenic 
wonders, restores the habitat of endangered species, hunts and 
recreates at the children's expense. Different interest groups of the 
state of Utah are beginning to understand that there can be solutions 
to competing land management practices. One solution that Utah and the 
United States Congress have found that works is land exchanges. Utah 
PTA supports fair compensation to the schools of Utah when the Federal 
Government captures the children's land for preservation or public 
uses. We thank Governor Leavitt, former Secretary Babbitt, Congressman 
Hansen and Cannon, Senators Bennett and Hatch as well as all who sit on 
this Committee and their staffs who made the Utah Schools and Land 
Exchange of 1998 and the Utah West Desert Land Exchange of 2000 
successful. These two prior exchanges have resulted in the protection 
of over a half million acres for national parks, monuments, Native 
American reservations, national forests and wilderness. The exchanges 
will increase revenues to the permanent trust fund that in turn will 
increase the annual dividend to schools this year and for decades to 
come.
    H.R. 4968 Federal-Utah State Trust Lands Consolidation Act of 2002 
solves the conflict in land management for over 100,000 acres of school 
trust lands in the state of Utah. It will directly benefit the 
schoolchildren of Utah. It will directly benefit the American public by 
preserving the beautiful San Rafael Swell and the species that live 
within the Red Cliffs Conservation Area. We strongly encourage your 
support of the legislation.
    Thank you for inviting me to testify here today.
                                 ______
                                 

    [Attachments to Ms. Rupp's statement follow:]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cannon. Thank you, Ms. Rupp. If you would give my best 
to Margaret, I would appreciate that. She is a wonderful leader 
in this area.
    I would like to point out for the record that we are joined 
by our colleague from New Jersey, Mr. Rush Holt. He has been 
very active in the legislation we have been working on for the 
San Rafael Swell. He had to leave to go to another engagement.
    But thank you again, Ms. Rupp, for your testimony.
    Ms. Plant, if you would like to speak for 5 minutes, we 
would appreciate hearing from you.

 STATEMENT OF PAULA PLANT, SCHOOL TRUST LANDS SPECIALIST, UTAH 
        STATE OFFICE OF EDUCATION, SALT LAKE CITY, UTAH

    Ms. Plant. Thank you, Mr. Chairman and Committee members 
for the invitation to be here today. We appreciate the 
opportunity of talking to you about this land exchange and are 
here to request your support of the bill.
    I am here representing the State Office of Education and 
you will find attached to my written testimony also letters in 
support from the Elementary and Secondary Principals 
Association, the Utah Education Association, the 
Superintendents Association and the School Boards Association.
    Just as a reminder, at Statehood Utah and the Federal 
Government entered into a bilateral compact. In the Enabling 
Act, the Federal Government granted four sections in each 
township specifically for the purpose of supporting public 
education.
    In the Constitution Utah agreed to the terms of the compact 
including a provision that they would not tax the Federal lands 
within the State. The money that is generated from those lands 
by State and Federal law, if the lands are to generate money, 
that money goes into a permanent fund. The money is not spent, 
but is invested. The interest and dividends are then 
distributed annually to the School LAND Trust that Karen has 
just explained to you.
    We have a funding problem in the State of Utah that 
Representative Hansen just explained to you. Our legislature 
commits a larger percentage of its resources to support 
education in the State of Utah and at the same time, we never 
seem to be able to move out of dead last in per pupil funding.
    We look to school trust lands as a means to help deal with 
that situation because two-thirds of the land in the State of 
Utah cannot be taxed for education. The problem is these lands 
are sprinkled across other Federal designations that are not 
managed to produce revenue.
    For the most part, the schools in the State of Utah have 
not been compensated for those other land uses. Adding to this 
grim picture, our legislature is in special session right now 
trying to deal with deficits.
    In the State of Utah, the children are going to feel cuts, 
additional cuts. We are going to lose teachers and programs in 
every school in the State. It leads us to a situation where we 
can't continue to tolerate uncompensated use of the school 
children's land.
    So, we are very pleased to be here and for the support that 
we have had in the past on two previous land exchanges where 
people are coming together and saying, ``How can we solve the 
management conflict in the State of Utah?''
    Those of you who have helped make those possible, we want 
to say thank you because we know that these kinds of land 
exchanges are not easy. We know that they take a great deal of 
time and resources, a lot of patience and tenacity. We 
appreciate those who have been involved in this potential land 
exchange to this point in time.
    We thank our Congressional delegation, Mr. Cannon for 
carrying the legislation, to Mr. Fulton who testified to you, 
the School Trust LANDS Administration, to all those who have 
been involved. We believe it will be important to the school 
children and want you to know that education in Utah supports 
this kind of a land exchange that can be positive for the 
environment, protecting lands that probably ought to be 
protected, and recognizing that this will simplify the land 
management in the State, which seems to be the big problem.
    Trust lands and the Federal Government will be able to 
manage their consolidated blocks for a single purpose. We think 
that's important.
    We also believe that it is important that we are able to 
stimulate some economic situations in the counties where these 
lands will be located. As those lands become productive, not 
only will the permanent funding increase from the revenues, but 
also property and income taxes will increase that also helps 
schools.
    Now, we know that there are those who may be questioning 
the values in the exchange. Based on what Mr. Boyden has 
explained to you, we believe the land exchange is fair and 
would like you to consider, if there are those who still have 
questions, that it is our school children's land that has been 
captivated in these Federal designations.
    They have not been producing revenue in the past for many, 
many years. We have not only lost those revenues, but also the 
interest and dividends that would have compounded over time.
    We thank you for the opportunity to be here today and 
request your support of this piece of legislation.
    Thank you very much.
    [The prepared statement of Ms. Plant follows:]

        Statement of Paula Plant, Utah State Office of Education

    Mr. Chairman, and distinguished Committee members, thank you for 
the invitation to testify this afternoon in support of H.R. 4968 
Federal--Utah State Trust Lands Consolidation Act of 2002. I am here to 
strongly urge your support for the land exchange that has been signed 
by Governor Leavitt, the Secretary of Interior and Secretary of 
Agriculture.
    At statehood, the state of Utah and the Federal Government entered 
into a bilateral compact that established a trust for the public 
schools of Utah. In the Utah Enabling Act, the Federal Government 
granted four sections in each township to support the common schools. 
In the Utah Constitution the state agreed to the terms of the compact 
including a provision that the state would not tax the Federal lands in 
the new state in return for the land grant to schools. School trust 
lands are an important component in the present and future funding of 
education in the state.
    Both Federal and state law require that the lands be managed to 
generate income for the schools. Revenue from trust lands--whether from 
grazing, forestry, surface leasing or mineral development--is placed in 
the State School Fund, a permanent income-producing endowment for 
public schools. The fund is invested and the annual interest and 
dividends are distributed to each school through the School LAND Trust 
Program.
    The state is heavily impacted by Federal ownership. Two thirds of 
the land in the state cannot be taxed for education. In addition many 
of the school trust lands that were granted to provide revenue for 
schools are sprinkled across various Federal designations that are not 
managed to be revenue producing. Because the school lands are inside 
land managed for purposes such as wilderness and habitat conservation, 
they have not been revenue producing and for the most part, schools 
have not been compensated. The schools of Utah have consistently been 
funded at the lowest per pupil expenditure in the nation while the 
state commits a greater percentage of the annual budget to education. 
Adding to the grim picture, current budget deficits in Utah are 
requiring that schools reduce expenditures across the state, programs 
and personnel are being eliminated. The schools of Utah cannot continue 
to tolerate uncompensated use of the school lands in the face of such 
desperately needed revenues.
    The education community of Utah is pleased that steps have been 
enacted in recent years to correct the errors of the past and to 
actively seek resolution to the conflict in land management missions. I 
wish to thank all who made two prior Utah land exchanges a reality. 
Sincere thanks goes to Governor Leavitt, the School and Institutional 
Trust Lands Administration, former Secretary Babbitt, Congressmen 
Hansen and Cannon, Senators Bennett and Hatch as well as members of 
this Committee and their staffs. We recognize exchanges of this 
magnitude require significant dedication of time and resources as well 
as tenacity and patience. We are appreciative of those efforts. The 
Utah Schools and Land Exchange of 1998 and the Utah Schools and Utah 
West Desert Land Exchange Act of 2000 have resolved some large prior 
management conflicts. Utah schools are beginning to receive revenues 
from acquired lands, the American public is able to enjoy beautiful 
scenic and recreational areas of Utah, and lands that have been 
identified for their significant environmental and scientific value 
have been preserved.
    The proposed land exchange before you today will resolve another 
piece of the land use conflict in the state. The education groups of 
Utah including the Utah State Board of Education, the State 
Superintendent, Utah PTA, the Utah Education Association, the Utah 
School Boards Association and the Utah School Superintendents' 
Association strongly urge your support of H.R. 4968. The education 
organizations of Utah support exchanges for the school children that 
accomplish the purposes explained here.
    1. LThe exchange is positive for the environment. Over 112,000 
acres of trust lands will be conveyed to the American public. These 
lands are in areas that have been identified by the BLM and the 
environmental community as having significant natural, scenic, 
recreational, and scientific values. The San Rafael Swell is one of 
America's scenic treasures. In the absence of an exchange, trust lands 
in this area will be used for mineral development or will be sold for 
purposes such as cabin sites. The Red Cliffs Desert Reserve in 
Washington County, in addition to its status as critical habitat for 
the desert tortoise and other species, is an exceptional public 
recreation area in one of the most rapidly growing urban areas in the 
county.
    2. LThe exchange will greatly simplify land management. While the 
school trust lands to be exchanged have both surface and mineral value, 
the lands cannot be managed to produce significant income without major 
disruption of the wilderness or scenic characteristics of surrounding 
areas. In the past, management conflicts of this type between the State 
and the United States have led to lengthy and expensive litigation. 
Elimination of scattered school trust sections throughout these areas 
will permit unified Federal management of the lands. On the other side 
of the exchange, the school trust will also receive consolidated tracts 
that can be managed far more efficiently and productively than the 
scattered lands being given up.
    3. LThe exchange will benefit school revenues and local economies. 
The Federal lands being acquired by Utah's school trust have been 
carefully chosen for their potential to permit economic development at 
the local level, as well as providing revenue to the permanent State 
School Fund while avoiding acquisitions in areas of critical 
environmental concern. We support the opportunity for increased 
development with the associated increase of jobs, property taxes that 
support local schools and income taxes that support education through 
the state budget.
    We understand that there are those who may question the values 
attributed to various lands in the exchange. We believe the exchange is 
fair, and have watched closely as tracts have been added and dropped 
from the proposal to address the concerns of various affected parties, 
with values then carefully brought back into balance. A nationally-
recognized independent real estate consulting firm was engaged by the 
parties to evaluate the methodologies used in valuing the lands and 
minerals involved in the exchange and the parties' conclusions that the 
lands on both sides of the exchange are of approximately equal value. 
The independent consultants have concluded that the parties' processes 
for determining value and their conclusions that the exchange was on an 
equal value basis are reasonable and supportable.
    For those who continue to question, we ask that they remember that 
the majority of trust lands being proposed for trade have been captured 
within Federal Wilderness Study Areas for two decades. In the case of 
the Red Cliffs Desert Reserve lands, highly valuable development lands 
in one of the most rapidly growing urban areas in the nation have been 
effectively taken through Federal designation of critical habitat for 
the desert tortoise, depriving the school trust of millions in real 
estate development revenue. Utah has taken the high road, and chosen 
not to litigate over these takings, nor has it chosen to sell the lands 
or take other action that would significantly diminish the conservation 
values of the surrounding Federal lands. The Federal Government's 
creation of these designations has denied Utah's schoolchildren the use 
of lands granted by Congress for the express purpose of generating 
revenue for their education, not to mention the interest on lost 
revenues that would have compounded on those revenues over time.
    We request that the Subcommittee recognize H.R. 4968 as another 
important step in resolving the conflict between conservation and 
education in the state of Utah, and urge your support of the bill.
    Thank you for the opportunity of testifying in the Committee today.
                                 ______
                                 

    [Attachments to Ms. Plant's statement follow:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cannon. Thank you, Mrs. Plant. As Ms. Ruff pointed out, 
we have among the highest tax rates in the country and the 
lowest per capita per student expenditure. I don't have the 
numbers officially yet, but right now we do household taxation. 
If you would just tackle households in Utah so you bring back 
kids that are off to college that aren't married yet, that 
don't have their own families. If you were to do a per-family 
taxation, we are about the seventh highest, in Utah, per 
household taxed State.
    But if you adjust by families, we may well be the highest 
per family tax State in the country with the lowest 
expenditure. That is, of course, because we have a huge number 
of kids.
    I think that there is no question but that I have the 
youngest population of any district in the country by a 
significant margin and the only district that comes close to 
that is my colleague, Mr. Simpson, from Southeast Idaho, or the 
eastern part of Idaho, which has much the same demographics.
    We ought to check, Mike, and see who has the youngest and 
the most kids. I think we are probably ahead of you still, but 
I suspect it is fairly close.
    Mr. Simpson. You might have the youngest. Ours are the best 
looking.
    No, I'm just kidding. I was just doing a quick inventory of 
all the beautiful women I know in Utah. It is pretty good.
    Mr. Cannon. On the other hand, it's wonderful in Idaho as 
well.
    Do you have any questions?
    Mr. Simpson. Not any questions. But I do want to say I 
appreciate what you are doing here. As Congressman Cannon 
mentioned, we have much the same problem you do in Idaho. We 
have 64 percent Federal land. When you throw in the State lands 
on top of that, we have close to 68 percent of the land which 
is non-revenue producing, which consequently, 32 percent of the 
land is producing the taxes which support public schools.
    We face that same situation now and the same deficit 
situation that you are in with the State legislature and the 
Governor looking for funds to try to fund public schools. So, I 
both sympathize and agree with we had to you are trying to do.
    Consolidation of these lands, I think, is a good idea so 
that A, you can manage them better and you can get more revenue 
out of them. We done some of that particularly with BLM areas 
and we are trying to do more of it with the Forest Service 
areas within the State of Idaho.
    But, to me it makes for actually better management of the 
lands also, not just in revenue, but in better management. When 
there were originally laid out, if you look at it, it was just 
kind of a checkerboard pattern around there. We really didn't 
think about management and who was managing and all that kind 
of stuff. It is amazing when you look at some of the maps how 
every pink section is the State of Idaho's here and they are 
trying to manage that.
    So, I appreciate what you are trying to do here. I applaud 
you for it. Hopefully we will get this through before too long.
    Mr. Cannon. Thank you.
    Let me just point out that I am enormously proud of the way 
we in Utah have managed the State trust lands and have moved 
these issues forward and have provided some leadership in other 
States, as well.
    I am thrilled to have been involved in the two prior recent 
land exchanges that we have done for school trust lands and 
hope that this one will move expeditiously this year as well, 
which I think it will.
    I do have a couple of questions. Mr. Boyden, you talked 
about avoiding areas of conflict, lands where they were either 
in wilderness study areas or other areas. Are there any lands 
that you are taking in this trade which are environmental 
sensitive?
    Mr. Boyden. I believe that we have some lands which may 
have good elk and deer habitat that we have heard some people 
say need to be protected. So, we have entered into a MOU with 
the Department of Wildlife Resources for the management of 
those lands so that whatever kind of development we do will be 
done in such a way as to ensure that that habitat not be 
compromised unduly.
    Mr. Cannon. Thank you. Are there any other environmental 
sensitive things that come to mind?
    Mr. Boyden. There has been some talk by the North Horn mind 
who are getting some access routes. But we have gone down there 
and looked at the plant species which some people have 
complained about. At this point we have found nothing. We will 
do whatever is necessary to avoid any damage to those species.
    Mr. Cannon. How about the lands you are moving out of? Are 
there environmentally sensitive areas there?
    Mr. Boyden. Absolutely. We have the tortoise habitat, the 
Desert Tortoise habitat. The original Red Cliffs Reserve is 
about 10,000 acres. Involved in this we have several thousand 
acres involved in the land exchange and then we have the rest. 
The balance will be bought out by the payments that we receive 
from the Walker Flat area.
    So all of this right now is managed under a reserve and 
will continue to be preserved into the future.
    Mr. Cannon. All right, thank you. There has been some talk 
about a monument in the center of San Rafael Swell. Of course 
that is where the bulk of these lands are being exchanged. What 
is the relationship of this land exchange to the monument 
proposal?
    Mr. Boyden. The land exchange and the monument creation 
have nothing to do with each other. But if a monument were to 
be created, we would have to then deal with how do you manage 
trust lands inside a national monument.
    So, what this does is make it possible for us to exchange 
into other areas where we are not involved in that kind of 
management issue. We remove ourselves from that. I think this 
is a great advantage to the Federal Government in its planning 
effort.
    Certainly, we don't have any income potential when we are 
going to protect lands which are in WSAs. A good portion of 
this San Rafael Swell area is already in designated wilderness 
study areas.
    We had a big land exchange when our former President named 
a monument in southern Utah. Now the Governor talked about a 
monument in this area and we have a fairly substantial land 
exchange. We will have to think about what the next step is to 
encourage a focus on an area so we can do more exchanges.
    Mr. Cannon. This is just in reverse. What happened is we 
were caught unawares with the Grand Staircase and then it 
created all kinds of issues for the management of the School 
Trust Funds.That is why it precipitated a large exchange. In 
this one we were a little more visionary. We knew that there 
would be and area that would be a future conflict if we 
remained.
    So, we tried to take ourselves out of the equation and not 
get in anybody's way, even when it comes to the development of 
either a national conservatism area, a national monument or a 
national park, whatever the result is, or the status quo, we 
are not going to be a player in that and start having 
difficulties between the purpose of the School Institutional 
Trust Lands mission and that of preservation of the Bureau of 
Land Management in those very sensitive areas.
    I saw ``Minority Report,'' the new Tom Cruise movie, the 
other day. Maybe we need an oracle to help us see what the next 
President is going to do so that we can be prepared.
    Thank you, Mr. Boyden.
    Ms. Rupp, could you speak for just a couple of minutes on 
how important this bill is for education in the State of Utah 
and what it will do for school kids?
    Ms. Rupp. Well, if you go back to the 1980's when we first 
started becoming involved in this, there was $34 million in the 
permanent account, which again we got the dividends and 
interest off of, which is very minimal.
    Just in the length of time that these exchanges have taken 
place and through the innovative things that have happened in 
Utah, our permanent account now is currently at $351 million 
and hopefully the stock market will do better. But with those 
types of things, we can't continue to have children in the 
school system and not provide books and supplies and things for 
them to be able to learn with.
    Utah is in such a unique position because of the amount of 
children we have, we really do have the work force there. We 
have to have an educated work force. These lands will make a 
difference, a huge difference, if we can be able to get them 
producing the way that I know our forefathers intended them to 
be.So, it will make a tremendous difference.
    Mr. Cannon. You know, we lost, over the last year of this 
recession almost two million jobs to people who didn't have 
college educations. We picked up about 400,000 jobs for people 
who had college educations. So education is the key to a decent 
future in America.
    Ms. Plant, are there any educational organizations in the 
State of Utah that are not supportive of this exchange that you 
know of?
    Ms. Plant. Not that I know of. I think there are letters 
attached from everyone except for the State's school board who 
simply do not have time to have it on their agenda, but told me 
that I could tell you that they have supported land exchanges 
in the past that do the things that this one does and that they 
would be supportive of this one as well.
    Mr. Cannon. For the record, and from my experience, I think 
you know all of the education groups in the State. So, that is 
probably a fair statement that everybody supports it; is that 
not?
    Ms. Plant. I would say that they do, yes.
    Mr. Cannon. Would you like to speak about the benefits of 
this exchange in addition to what you have said already?
    Ms. Plant. Well, yes, maybe I can just share an experience 
of my own. I sit on one of the School Land Trust Committees in 
one of my children's schools. The first year I did we had to 
spend a little bit of money coming and we met with the 
teachers.
    I think this is a very unique and interesting thing that is 
happening, is that parents and teachers and administrators are 
sitting down and saying, ``What are the problems in these 
schools and how can we address them?''
    We have very high Reading scores and learned that we were 
not doing that well in Social Studies and Science. Well, this 
didn't quite add up for me because I'd always been told if you 
read well you would do everything else well.
    So, I looked at the teachers and said, ``What's going on?''
    They said, ``Well, if we had geography maps in or rooms, 
the kids might know where the countries were.''
    We found that there were only two classrooms in the school 
that had accurate geography maps for that age group. So, we 
used a portion of the money to purchase the maps.
    Then we said, ``Well, what's the deal with the Science 
scores?''
    They said, ``Well, we don't have up-to-date classroom sets 
of Science books and there is no place to conduct the kinds of 
experiments that interest children in Science.''
    So, there was a classroom that we cleaned out and we turned 
it into a Science lab. The money now is going over the course 
of the year to buy Science lab equipment and textbooks so that 
we can teach Science in our school. I think that is very 
important.
    In addition, I think it is important with this land 
exchange that we begin to create conversations with communities 
that have different ideas about how the land ought to be used, 
so that instead of constantly being in conflict, we can 
sometimes be partners and say there are solutions.
    I think that is very important. I think that the economic 
benefits this is going to contribute to the counties that are 
going to receive the lands over time will be very important to 
those communities.
    Mr. Cannon. Thank you very much.
    Are there any other comments you would like to make on the 
subject, any of you?
    Mr. Boyden. We would like to thank you very much for your 
time, Mr. Chairman.
    Mr. Cannon. Thank you. You helped us develop a very 
complete record. We appreciate your comments and your input on 
this matter.
    The Subcommittee stands adjourned.
    [Whereupon, at 3:10 p.m., the Subcommittee was adjourned.]
    [A statement submitted for the record by Larry Young, 
Executive Director, The Southern Utah Wilderness Alliance, and 
Pam Eaton, Four Corners Regional Representative, The Wilderness 
Society, follows:]

    Statement of Larry Young, Executive Director, The Southern Utah 
       Wilderness Alliance and Pam Eaton, Four Corners Regional 
                 Representative, The Wilderness Society

    Mr. Chairman and Members of the Subcommittee, the Southern Utah 
Wilderness Alliance and The Wilderness Society appreciate the 
opportunity to submit our views and concerns regarding H.R. 4968, 
legislation that proposes the exchange of lands between the State of 
Utah on the one hand and the Bureau of Land Management and Forest 
Service on the other. As proposed, this exchange would involve the 
transfer of approximately 108,000 acres of state lands to the Federal 
Government in exchange for approximately 133,000 acres of Federal 
lands.
    The Southern Utah Wilderness Alliance and its 14,000 members in 
Utah and across the nation have been committed for the past 17 years to 
ensuring that future generations of Americans will have the opportunity 
to use and enjoy, without diminishment, the spectacular array of 
landscapes bestowed upon the State of Utah. The Wilderness Society, 
with nearly 190,000 members from across the country, has been committed 
to protecting America's wilderness and wildlife since 1935. We have 
been deeply involved in discussions centered on designation of certain 
public lands in Utah as part of the National Wilderness Preservation 
System and we are dedicated to protecting the integrity of this 
superlative natural heritage and the biological processes supporting 
it.
    The initial impetus for this proposal was to resolve state land 
issues within the San Rafael Swell--a spectacular region that we are 
dedicated to protecting. We could support a proposal that focuses on 
exchanging state lands out of Swell provided that: (1) resource values 
are protected; and (2) the exchange is of equal value. However, in its 
current form, H.R. 4968 fails both of our tests for an appropriate 
exchange. Though initially focused on lands in the San Rafael Swell, 
the proposed exchange includes lands far outside the Swell region near 
St. George, Utah, the value of which is highly controversial. Our hope 
is that through a cooperative effort, this legislation will evolve in a 
way that we and others who share our concerns can ultimately support 
the bill. We believe that it is possible to find equivalent lands in 
exchange for state lands in the San Rafael Swell without losing 
sensitive lands in the Bookcliffs, Molen Reef, and other special areas 
that should remain in Federal public ownership
    Toward that end, we believe that a number of issues must first be 
addressed and resolved as the bill receives further consideration:
Environmental Concerns Have Not Been Adequately Addressed Through The 
        Process
    In late May 2002, SITLA invited us to meet with them to discuss the 
proposed exchange, and on May 28 we provided SITLA with a letter 
raising our initial concerns. On June 17, 2002 SITLA responded by 
letter addressing some of these concerns, but leaving many issues 
unresolved. Unfortunately, the bill was introduced just two days later 
on June 19, and we did not have the opportunity to resolve these 
remaining issues. We believe, however, that together we can find a 
solution that will protect the most sensitive environmental resources 
while moving the legislation closer to an exchange of equal value.
BLM Should Retain Ownership of Ecologically Sensitive Lands
    The exchange proposal in its current form includes certain lands 
with important wildlife and other values that we believe would be 
undermined or harmed if transferred to SITLA. Under BLM management, 
public lands are now subject to the protections offered by Federal laws 
like the National Environmental Policy Act, the Clean Water Act, the 
Federal Land Policy and Management Act, and others. None of these laws 
would apply to public lands transferred to SITLA, whose primary 
interest in the lands is economic development.
    In the short time between this bill's introduction and the hearing 
before this Subcommittee, we have struggled to find opportunities to 
reduce the environmental conflicts inherent in the proposed exchange. 
After extensive review and discussion, we have narrowed our concerns to 
the most environmentally sensitive parcels within the Molen Reef and 
Bookcliff areas. These lands, described below and totaling 
approximately 33,500 acres, should be removed from the exchange:
    A. LIn the Molen Reef area of the San Rafael Swell, approximately 
800 acres of BLM lands, that have been proposed for Wilderness 
designation and are included within America's Redrock Wilderness Act 
H.R. 1613, are proposed to be traded to SITLA. These should be removed 
from the exchange. These parcels encompass portions of Muddy Creek, and 
include important winter habitat for hundreds of elk. SITLA acquisition 
of these and adjacent parcels would preclude Wilderness designation, 
and could result in a negative impact to this important elk habitat. It 
is our understanding that the lands would be utilized as an elk ranch 
and private hunting area, which in turn could lead to the transfer of 
Chronic Wasting Disease from domestic to wild elk, and the loss of a 
public wildlife resource.

       LThe area is also potential critical habitat for the Federally 
and State endangered blackfooted ferret, the State threatened yellow-
billed cuckoo, as well as the sage grouse, western red bat, ring-tailed 
cat and birds of prey such as the bald eagle. According to the Utah 
Natural Heritage data, these lands also comprise valuable habitat for a 
number of sensitive and rare plant species. Lastly, these parcels are 
within approximately 2,500 feet of the Rochester petroglyph panel, an 
important public cultural resource. Transfer of these BLM lands could 
affect management and protection of this well-known rock art.
    B. LThe proposal in the Bookcliffs area contains two areas known as 
Monument Ridge and Wolf Point, both of which contain some of the most 
biologically rich and important wildlife habitat in Utah. Of the 
proposal's approximately 92,000 total acres in the Bookcliffs, we are 
concerned mainly with about 32,700 acres within these two particularly 
important areas.

       LBoth Monument Ridge and Wolf Point overlap extremely sensitive 
lands, and miles of riparian corridors that are important to nesting 
raptors, native fish and other wildlife. In addition to their primitive 
character, these areas are critical mule deer fawning and elk calving 
habitat, and crucial mule deer and elk summer and winter range. 
Monument Ridge is an important wildlife migration corridor, as well as 
a location for sage grouse leks and nesting habitat. The area also 
contains habitat for the Federally and State threatened Mexican spotted 
owl, and the northern goshawk. Monument Ridge also happens to be the 
home of the oldest bear identified in recent Bringham Young University 
studies of the area--Hillary, a 24-year-old female.
    The above parcels should be removed from the proposed exchange, and 
are identified on maps attached as an exhibit hereto. While removing 
these parcels from the legislation does not resolve all of our 
environmental and valuation concerns, it represents our bottom-line 
toward protecting the outstanding environmental resources of these 
areas and moves the bill closer toward an equal-value exchange.
The Exchange Proposal Should Safeguard Utah's Unique and Valuable 
        Archeological and Cultural Sites; Tribes Should be Involved
    In addition to removing the above parcels, the legislation should 
ensure that archeological resources are protected. Under normal 
circumstances, actions impacting Federal lands require the Federal 
agencies to consult with Native American tribes, and to inventory 
cultural, archeological and historic sites to minimize harmful impacts. 
See e.g. National Historic Preservation Act, 16 U.S.C. Sec. 470e 
[Section 106] (before approving projects of approving funding, Federal 
agencies shall ``take into account the effect of the undertaking on any 
district, site, building, structure or object that is included in or 
eligible for inclusion in the National Register'').
    The regulations further confirm that the ``[t]ransfer, lease or 
sale of property out of Federal ownership and control without adequate 
and legally enforceable restrictions or conditions to ensure long-term 
preservation of the property's historic significance'' results in an 
``adverse effect'' on historic properties.'' NHPA regulations, 36 
C.F.R. section 800.5(a)(2)(vii).
    As far as we can determine, the NHPA's provisions have not been 
observed in connection with this exchange. As you know, Utah is blessed 
with a wealth of such archeological and culturally-important sites, 
which should not be given away without consultation and some measure of 
protection.
The Lands Exchanged Should Be of Equal Value
    The state and Federal lands subject to the exchange must be 
carefully evaluated to ensure fairness to both Federal and state 
taxpayers, i.e., that the lands are of equal value. As it stands, 
serious questions remain regarding the comparable value of the 
properties subject to the proposed exchange, and the net gain of nearly 
30,000 acres to the State of Utah. We encourage you to examine 
carefully this aspect of the legislation, including an investigation 
into the statements and conclusions presented in A White Paper in 
Support of the 2002 Federal-Utah State Trust Lands Consolidation 
Agreement. Testimony submitted by The Western Land Exchange Project, a 
public interest organization with expertise in this area, also raises 
significant questions regarding the fairness of this exchange.
    Finally, we reiterate that the primary motivating factor for this 
proposal is the desire to trade state lands out of the scenic San 
Rafael Swell. A trade involving state lands outside of the San Rafael 
is extraneous to this objective. Restricting the exchange to state 
lands in the San Rafael would help limit the proposal in the Bookcliffs 
and other areas to less environmentally-sensitive lands.
Conclusion
    The lands with important wilderness and wildlife values described 
above should be removed from the exchange. Removal of the areas would 
promote the protection of important public, cultural, archeological and 
wildlife values for present and future generations, and would move the 
legislation closer to an exchange of equal value. The importance of 
these areas weighs strongly in favor of their retention, management and 
protection by the Federal Government for the benefit of all Americans.
    Thank you for the opportunity to provide our perspective on this 
important issue. We would be pleased to provide you with further 
information as the legislative process proceeds, and look forward to 
working with the Committee to improve this legislation so that it may 
receive broad support.
                                 ______
                                 
    [Maps attached to Mr. Young's statement follow:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
